HHS/OIG-Audit--"Audit of the Pension Plan at a Terminated Medicare Part A Contractor Blue Cross and Blue Shield of Louisiana, (A-07-95-01121)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Part A Contractor
Blue Cross and Blue Shield of Louisiana," (A-07-95-01121)
February 7, 1996
Complete Text of Report is available in PDF format
(422 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension costs claimed
for Medicare Part A Reimbursement by Blue Cross and Blue Shield of Louisiana
(Louisiana). For 1988 through 1991, we determined that Louisiana under claimed
allowable Medicare Part A pension costs. During this period, the allowable Medicare
Pat A pension costs were $90,572. However, Louisiana claimed pension costs of
$32,714 for Medicare reimbursement. As a result, Louisiana did not claim $57,858
of allowable Part A pension costs. The under claim occurred primarily because
Louisiana did not base their claim on separately computed pension costs for
the Medicare segment, calculated in accordance with the Cost Accounting Standards
(CAS). We recommended that Louisiana revise its Final Administrative Cost Proposals
(FACPs) to reflect the remaining allowable pension costs.